               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Postal Service Knowledge
              Management Process

                       Audit Report




                                              March 7, 2014

Report Number DP-AR-14-002
                                                                          March 7, 2014

                                             Postal Service Knowledge Management
                                                                         Process

                                                         Report Number DP-AR-14-002



BACKGROUND:
As a result of downsizing in response to     within several Postal Service systems to
declining mail volume and the retirement     capture some tacit and explicit
eligibility of about 31 percent of its       knowledge. In addition, we could not
workforce (152,000 employees), the           find any of the 49 studies or consultant
U.S. Postal Service is at risk of losing     reports in the Postal Service
the extensive knowledge required to          Headquarters library where they could
manage its vast operations. The Postal       be shared among all postal
Service had annual revenue of about          departments, as required by policy.
$67.3 billion, delivered over 158 billion
mailpieces, and managed over 31,700          A comprehensive Postal Service
retail locations in fiscal year (FY) 2013.   knowledge management process would
It also operates one of the largest          enable management to leverage
information technology infrastructures in    information from throughout the
the world, with an inventory of 795          organization for strategic decision-
computer applications. It spent at least     making and new initiatives. In the near
$59 million on 49 contracts for studies or   term, knowledge management activities
consulting services during FYs 2011          would also mitigate the possible loss of
through 2013.                                extensive tacit knowledge due to
                                             anticipated Postal Service downsizing
Our objective was to assess the Postal       and the retirement eligibility of about
Service’s knowledge management               31 percent of its workforce.
practices, systems, roles, and
responsibilities. Accordingly, we            WHAT THE OIG RECOMMENDED:
compared Postal Service knowledge            We recommended the vice president,
management processes with eight              Employee Resource Management,
organizations to identify best practices     develop a comprehensive Postal
the Postal Service might adopt to            Service knowledge management
optimize its resources and efforts.          strategy. We also recommended the
                                             Postal Service join the Federal
WHAT THE OIG FOUND:                          Knowledge Management Working
The Postal Service does not have a           Group, which has experts to assist,
comprehensive knowledge management           inform, and support development and
policy or process or a chief knowledge       implementation of a comprehensive
officer to ensure that knowledge sharing     knowledge management strategy.
is systematic and collaborative.
Although not well-defined, there are         Link to review the entire report
knowledge management elements
March 7, 2014

MEMORANDUM FOR:            ROSEMARIE FERNANDEZ
                           VICE PRESIDENT, EMPLOYEE RESOURCE
                           MANAGEMENT




FROM:                      Janet Sorensen.
                           Deputy Assistant Inspector General
                            for Revenue and Business

SUBJECT:                   Audit Report – Postal Service Knowledge Management
                           Process (Report Number DP-AR-14-002)

This report presents the results of our audit of the U.S. Postal Service Knowledge
Management Process (Project Number 13RG019DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Postal Service Knowledge Management Process                                                                        DP-AR-14-002




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Postal Service Knowledge Management ......................................................................... 2

   Best Practices.............................................................................................................. 3

   Establishment Phase ................................................................................................... 4

   Enhancement Phase ................................................................................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Organizations Using Knowledge Management ......................................... 13

Appendix C: Knowledge Management Best Practices .................................................. 14

Appendix D: Management's Comments ........................................................................ 22
Postal Service Knowledge Management Process                                     DP-AR-14-002




Introduction

This report presents the results of our self-initiated audit of the U.S. Postal Service
Knowledge Management (KM) Process (Project Number 13RG019DP000). Our
objective was to assess the U.S. Postal Service’s KM practices, systems, roles, and
responsibilities.

KM is a holistic process that optimizes intellectual capital to achieve organizational
objectives by leveraging information and expertise. KM efforts typically focus on
organizational objectives such as improved performance, competitive advantage,
innovation, sharing lessons learned, and integrating and continuously improving the
organization. In addition, the KM process is intended to lead to specific outcomes, such
as shared intelligence, improved performance, and higher levels of innovation. Through
KM, organizations are better able to capture critical information, make the right
information available to the right people at the right time, and ensure that existing
employees pass knowledge and experience to new employees.

The knowledge part of KM is defined as a mix of experience, values, intelligence,
insight, and inspiration that provides a framework for intelligent decision-making using
tacit and explicit knowledge:

   Tacit knowledge – knowledge that's difficult to write down, visualize or transfer from
    one person to another. It consists of informal and experiential knowledge that
    employees gain through work and life experiences.

   Explicit knowledge – knowledge that is formal and codified and contained within
    documents, best practices, and databases.

Organizations also use KM to enhance revenue and financial growth; remain
competitive in the business world; and improve employee training, innovation,
responsiveness, and organizational culture. See Appendix A for additional information
about this audit.

Conclusion

The Postal Service does not have a comprehensive KM policy or process or a chief
knowledge officer (CKO) to ensure that knowledge sharing is systematic and
collaborative among its systems and employees. Although not well-defined, there are
elements of KM that reside within several Postal Service systems to capture some tacit
and explicit knowledge.

Our comparative analysis identified 18 KM best practices used by eight organizations
(see Appendix B). Each organization uses those practices that best fit its particular
circumstances, capabilities, and priorities. Therefore, while only one organization uses
                                              1
Postal Service Knowledge Management Process                                                         DP-AR-14-002



all 18 best practices, all eight organizations use six of them. The Postal Service should
act similarly when implementing its comprehensive KM process and keep in mind that
these best practices are generally established in a 2- to 3-year period. This allows
management time to set broad policies before taking more specific actions. See
Appendix C regarding these best practices.

A comprehensive Postal Service KM process would enable management to leverage
information from throughout the organization for strategic decision making and new
initiatives. In the near term, KM activities would also mitigate the possible loss of
extensive tacit knowledge due to anticipated Postal Service downsizing in response to
declining mail volume and the retirement eligibility of more than 152,000 employees, or
about 31 percent of the Postal Service workforce.1

The Postal Service needs a comprehensive KM process and a CKO to safeguard
against tacit knowledge loss and to ensure knowledge is managed as a strategic asset
that is broadly accessible throughout the organization. In addition, management should
identify KM as a common strategic asset that should be broadly accessible and include
it in Delivering Results, Innovation, Value, and Efficiency (DRIVE)2 strategic initiatives.

Postal Service Knowledge Management

The Postal Service does have certain elements of KM, including:

   The Blue Pages, an employee intranet providing content, information, and tools to
    support employees in their business conduct and work performance.

   The Human Resources (HR) Learning Management System, a training website that
    provides online courses.

   The Supply Management (SM) Asset Management Group’s Knowledge Sharing
    Program, which develops mentee employees into subject matter experts (SMEs).

   The HR Shared Services Center (HRSSC), the agency call center's KM system. The
    HRSSC is mainly composed of frequently asked questions and standard operating
    procedures (SOP), which were implemented along with a formal department level
    KM process.

For further details on the Postal Service’s KM elements described above, please see
Appendix A.

While the aforementioned programs are elements of KM, there is little coordination or
knowledge sharing among the various departments. For example, the SM Group is

1
  As of June 30, 2013, there were 492,596 career Postal Service employees and over 152,000 were either eligible to
retire or would be within 5 years.
2
  A data-driven management system that improves business strategy. It manages key initiatives to provide
streamlined reporting and accountability.


                                                         2
Postal Service Knowledge Management Process                                                       DP-AR-14-002



responsible for contracting for studies or program analysis for the Postal Service. During
fiscal years (FYs) 2011 through 2013, the Postal Service spent about $59 million3 on
49 contracts for studies or consulting services.4 According to Postal Service policy5 a
copy of the completed studies should be stored in the headquarters library. However,
we did not find any studies stored there. As a result, departments within the Postal
Service are not made aware of studies or consulting services that other departments
purchase. In addition, the Postal Service does not have a way to readily determine the
studies or consulting services that have been conducted in the past or a process to
ensure this information is available to future employees. If the Postal Service had a KM
process in place, this information would be a shared knowledge resource accessible to
appropriate personnel and would reduce the potential for duplication of studies.

In the near term, the Postal Service is at risk of losing extensive tacit knowledge as a
result of downsizing and the retirement eligibility of about 31 percent of its workforce. A
comprehensive KM policy could ensure the informal and experiential knowledge of its
employees — which constitutes an organizational memory — is captured for present
and future employees.

A comprehensive KM process, developed and administered by a CKO, would
specifically:

   Foster innovation by encouraging the free flow of ideas.

   Improve customer service by streamlining response time.

   Boost revenue by marketing products and services faster.

   Enhance employee retention rates by recognizing the value of employees'
    knowledge and rewarding them for it.

   Streamline operations and reduce costs by eliminating redundant or unnecessary
    processes.

Best Practices

After examining KM practices at eight organizations, we identified 18 best practices (see
Appendix C for details). They fall into three main categories and are used to create a
formal, organization wide KM process:

   People.
   Processes.
   Technology.
3
  The 49 studies or consulting services vary in type, from global business research and support, strategic
management support to market research and economic analysis. The costs for the studies and consulting services
range from about $6,300 to $13.6 million.
4
  Postal Service SM group.
5
  Management Instruction, AS-710-91-9, Contracting for Consultant Services, dated August 8, 1991.


                                                       3
Postal Service Knowledge Management Process                                   DP-AR-14-002




We noted that all eight organizations use six of the 18 KM best practices. Also, there
are multiple ways to manage knowledge across the entire organization; therefore it is
important to tailor a KM strategy to the needs of the organization.

The Postal Service does not use any of these six practices. But it could phase them in
over 2 to 3 years through a two-step process. Gradually adopting these practices with
an establishment phase and an enhancement phase would allow management to set
general, broad policies before taking more specific, technical actions.

Establishment Phase

This phase creates a formal KM process using the following most commonly used best
practices:

1. Senior leadership involvement – this level of visibility and ownership ensures the KM
   process is aligned with the business objectives (People, best practice #1).

2. Organizational culture – a knowledge-sharing culture is critical to the KM process.
   Successful knowledge gathering and sharing is unlikely if people feel they would be
   at a disadvantage by sharing their knowledge (People, best practice #2).

3. Dedicated person/team – the role of a CKO or dedicated group is crucial to the
   success of the KM process. The CKO ensures implementation is aligned with
   current business approaches, targets the right problems, and is coordinated with
   other existing change initiatives (Process, best practice #1).

Enhancement Phase

This phase builds on practices implemented during the establishment phase and should
include the following four best practices, which were the next most commonly used by
our selected organizations:

4. Education and Training – an organization can enhance future operations by applying
   modern KM techniques. This will improve employee training, innovation, and
   responsiveness, and create a more balanced organizational culture (Process, best
   practice #9).

5. Appropriate technology – applications that work for the organization and encourage
   knowledge sharing, such as wikis and blogs. They are inexpensive yet effective
   knowledge-sharing platforms (Technology, best practice #1).

6. Communities of Practice (CoPs) – a process of social learning that occurs when
   people have a common interest in an area and collaborate over an extended period
   of time, sharing ideas and strategies, determining solutions, and building




                                              4
Postal Service Knowledge Management Process                                   DP-AR-14-002



   innovations. This virtual repository fosters knowledge sharing within and between
   organizations (Technology, best practice #2).

Following the first two implementation phases, the remaining 12 best practices listed in
Appendix C could be implemented as needed and as applicable.

Recommendations

We recommend the vice president, Employee Resource Management:

1. Develop a comprehensive Postal Service knowledge management strategy and
   associated policies and procedures, including appointing a chief knowledge officer.
   This process should build on current Postal Service knowledge management
   practices and the appropriate best practices identified in this report.

2. Join the Federal Knowledge Management Working Group, an organization that has
   experts to assist, inform, and support the development and implementation of a
   comprehensive knowledge management strategy.

Management’s Comments

Management disagreed with the finding and recommendations.

Regarding the finding, management asserted that establishing a KM process and
appointing a CKO will not provide any value and may impose additional costs while
distracting from successful, ongoing strategic initiatives that incorporate KM. For
example, management asserts that DRIVE incorporates cross-functional collaboration
and communications. Further, DRIVE develops best practices and standardized
methods and replicates them throughout the organization.

Also, the Technology Management Office System is an enterprise technology
application used to capture knowledge and enable knowledge sharing for all DRIVE
initiatives. Management also noted that the Postal Service's internal shared drives
provide repositories for commonly accessed documents, such as the Blue and LiteBlue
pages. Additionally, the SM Asset Management Group’s Knowledge Sharing Program
documents and manages knowledge for specific functional areas and activities.
Management also noted they have a comprehensive program to identify and develop
employees who use leadership development programs, including the Managerial
Leadership Program, Advanced Leadership Program, Executive Leadership and
Executive foundations, and a formal succession planning process. In addition, the
Continuous Improvement Office identifies, develops, and disseminates operational best
practices Postal Service-wide.

Regarding recommendation 1, management stated that a separate KM program with a
CKO will not add value and may impose additional costs. Management did not believe
the report adequately described how their current programs ensure that knowledge is
effectively and efficiently managed within the Postal Service. In addition, management


                                              5
Postal Service Knowledge Management Process                                     DP-AR-14-002



believes the Postal Service has an integrated approach to operational and process
improvements that includes cross-functional collaboration and communication that are
consistent with the organization’s strategic goals and the KM best practices described in
Appendix C of this report.

Regarding recommendation 2, management stated they cannot commit to joining the
Knowledge Management Working Group (KMWG) at this time; however, they will review
the wiki content and contact the federal KMWG leader to determine whether the group
could enhance Postal Service KM processes in the future.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments unresponsive to the finding and recommendations. As such, we view the
recommendations as unresolved, but do not plan to pursue them through the audit
resolution process. We will work with management to develop a mutually agreeable
resolution.

Regarding the finding, management asserted that establishing a KM process and
appointing a CKO will not provide any value and may impose additional costs while
distracting from successful, ongoing strategic initiatives that incorporate KM.
Management provided examples of the different pieces of the KM process that they
have in place. In our finding we acknowledged the Postal Service has pieces of a KM
process in place and provided some examples; however, as stated in the report, these
separate elements do not constitute a deliberate and well-planned KM process.

Management, in their comments, did not demonstrate that they have a permanent,
comprehensive KM policy or process or a CKO to ensure that knowledge sharing is
systematic and collaborative among all Postal Service systems and employees. The
Postal Service’s KM pieces operate separately and not as a whole program. A KM
strategy helps ensure that knowledge in all areas is effectively and efficiently managed.
Merging these KM elements into an overall strategy would yield additional knowledge
and lessons learned and would enable the Postal Service to more easily identify where
it has gaps, such as in the areas of informal knowledge sharing and gathering.

Regarding recommendation 1, management disagreed with our recommendation to
develop a comprehensive Postal Service KM strategy and associated policies and
procedures, stating this will not provide additional value and may impose additional
costs. We agree that it could impose minimal additional costs on the Postal Service, but
the tangible and intangible benefits outlined in the audit should outweigh those costs.
The benefit of appointing a CKO is threefold. First, it emphasizes that KM is a priority in
the organization. Second, it designates someone to develop, implement, and direct a
comprehensive KM strategy. Third, it ensures that KM is built into and informs all Postal
Service processes and fills identified gaps.



                                              6
Postal Service Knowledge Management Process                                    DP-AR-14-002




Regarding recommendation 2, being a member of the KMWG would give the Postal
Service an opportunity to share in the benefits of the federal government's intellectual
assets. Additionally, the Postal Service would gain a further understanding of
comprehensive and individual KM best practices used by federal agencies and the
private sector.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                              7
Postal Service Knowledge Management Process                                                         DP-AR-14-002




                                Appendix A: Additional Information

Background

KM involves making full use of a company’s knowledge in a methodical way to facilitate
optimal business activities, boost efficiency to foster innovation, and maintain a
competitive edge. Industry analysts emphasize the rising importance of the KM industry
because of today's rapidly changing business world. KM efforts typically focus on
organizational objectives such as improved performance, competitive advantage,
innovation, sharing of lessons learned, and integration and continuous improvement of
the organization. KM focuses on the management of tacit and explicit knowledge as a
strategic asset and encourages the sharing of knowledge.

The private sector used KM for more than a decade before the federal Chief Information
Officers Council instituted the KMWG6 in 2000. This group was formed by federal
civilian and military organizations from more than 30 agencies. Collectively, they began
developing and sharing what has been called the world's largest storehouse of
knowledge and expertise.

The KMWG Charter was designed to bring together content, processes, and technology
to ensure the federal community takes advantage of its combined knowledge,
experience, and abilities. KMWG serves as an interagency body that shares the
benefits of the federal government's intellectual assets among its organizations,
customers, and partners. The KMWG also identifies KM best practices used by federal
agencies and the private sector. Each agency has its own internal policies and
procedures governing the strategic uses of knowledge and organizational structures for
KM.

In the private sector, Walmart uses KM to focus organizational objectives and to
improve business performance, innovation, competitive advantage, and operations. Its
KM also includes formal apprenticeships, discussion forums, corporate libraries,
mentoring programs, and professional training. The company uses technologies7 such
as expert systems, knowledge bases, group decision support systems, intranets,
knowledge repositories, and computer-supported cooperative work.8

The World Bank relies on KM to generate knowledge in collaboration with its partners
and clients to make its information easily accessible across the globe. In addition, it
uses KM to respond to the fast-changing world of economic development and multiple
sources of knowledge. The World Bank has used KM since 1996 to ensure the flow of
knowledge and to support its work.9


6
  The KMWG website is hosted by the National Aeronautics and Space Administration (NASA).
7
  This includes hardware and software technology.
8
  Computer supported cooperative work - also known as CSCW - is the understanding of how people work in groups
with the enabling technologies of computer networking and associated hardware, software, services, and techniques.
9
  The State of World Bank Knowledge Services, Knowledge for Development 2011.


                                                        8
Postal Service Knowledge Management Process                                  DP-AR-14-002



The Postal Service employed about 500,000 employees, had annual revenue of about
$67.3 billion, delivered over 158 billion mailpieces, and managed over 31,000 retail
locations in FY 2013. The Postal Service also operates one of the largest information
technology infrastructures in the world, with 795 computer applications. In the near
term, the Postal Service is at risk of losing extensive tacit knowledge as a result of
downsizing in response to declining mail volume and the retirement eligibility of more
than 152,000 employees, or about 31 percent of the workforce.

The Postal Service has some elements of KM. However, these elements do not provide
internal policies and procedures governing the strategic uses of knowledge and
organizational structures to sustain and evolve the management of knowledge.
Elements of KM in the Postal Service include:

   Blue Pages – the Postal Service’s intranet, which is a means of developing
    employees professionally, as well as personally. The Blue Pages have content,
    information, and tools to assist employees in better conducting business and
    performing their work. The Blue Pages contain numerous links that allow employees
    to access databases, postal applications, organizational initiatives, manuals, and
    handbooks.

   Human Resource Learning Management System training website — a learning
    solution that enables the Postal Service to maximize the benefits of its learning
    strategies. Based on security access, its links allow employees, managers, and
    instructors to request participation and manage training courses for themselves and
    others.

   SM Asset Management Knowledge Sharing Program — a program expected to
    improve overall organizational knowledge and develop SME in selected topic areas.
    The Asset Management leadership team will identify the knowledge sharing topics
    and target audience annually and a team will develop knowledge-sharing training
    sessions. The team will include an SME, an employee who demonstrates strong
    skills and abilities in his or her current position, and an employee with limited
    knowledge and expertise on the topic. The SME will mentor the other team members
    as they develop and present the knowledge-sharing topic, with the mentees
    expected to become SMEs on the topic.

   Human Resource Shared Services Center (HRSSC) — a call center that has used
    KM for about 3 years and consists of two main knowledge-based systems. One
    system is a knowledge-based repository of about 2,500 Frequently Asked Questions
    a call center phone team accesses when Postal Service employees call for
    assistance. It is a service engine team tool with stored knowledge. The second
    system is a reference guide knowledge base, which is a grouping of SOPs, such as,
    HR procedures governing benefits. In addition, the HRSSC has a mapping structure
    to establish and assist in their KM process. Using the HR example above a mapping
    structure will show what happens when an HR query enters the call center and how
    it flows through the process.



                                              9
Postal Service Knowledge Management Process                                                           DP-AR-14-002




Further, in today’s world, email, the Internet, and social media offer affordable paths for
acquiring and disseminating knowledge, democratizing knowledge, and energizing a
movement for open knowledge. More and more institutions and experts focus on
producing and disseminating knowledge as a core business activity.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s KM practices, systems, roles, and
responsibilities. To accomplish our objective, we performed a comparative analysis of
private and public sector organizations to identify KM best practices using research and
analysis based on their extensive expertise.

Specifically, we sought to understand how other organizations:

    Use KM as a systemic process to identify and capture tacit knowledge and transfer it
     into explicit information employees can use to create, compete, and improve
     business strategy.

    Use CKOs to implement, oversee, and evaluate the KM process; provide leadership
     and direction; and make decisions.

We interviewed representatives from selected public and private organizations and
reviewed their established KM programs, each with a CKO to oversee the KM process.
The eight organizations are:

    The Federal Aviation Administration (FAA).
    FBI.10
    General Services Administration (GSA).
    NASA.
    The World Bank.
    The U.S. Navy (USN) – Joint Staff.
    U.S. Secret Service (USSS).
    Walmart.

We considered these organizations leaders in KM, because they have received KM
awards or recognition, are members of the KMWG, and are broadly similar to the Postal
Service as part of our nation’s infrastructure with similar budget constraints.

We selected the World Bank and Walmart as examples of private industry leaders in
KM. The World Bank is a major source of financial and technical assistance to
developing countries around the world and a contributor to global development
knowledge. Walmart has a profile similar to the Postal Service's in terms of its number


10
  In September 2013, due to the government sequestration, the FBI’s KM group is no longer centrally or strategically
coordinated through one office. However, KM still exists at the local or unit level.


                                                         10
Postal Service Knowledge Management Process                                                        DP-AR-14-002



of locations, workforce size, reliance on delivery and transportation, and service
requirements.11

We noted in our comparative analysis that only one organization uses all of the KM best
practices we identified (see Appendix B for a list of participating organizations). This
illustrates the importance of adopting a KM strategy that best suits the needs of the
organization.

To compare best-in-class KM practices against current Postal Service KM practices,
we:

    Interviewed Postal Service personnel in the Chief Information Office, Government
     Relations and Public Policy, HR, and SM departments to determine what KM best
     practices, policies, procedures, and strategies exist in the Postal Service.

    Reviewed applicable Postal Service regulations, policies, and procedures.

    Interviewed federal sector organizations’ KM personnel, including members of the
     KMWG, to obtain KM best practices, policies, procedures, and strategies.

    Reviewed and analyzed a KM case study for a private sector organization to
     understand how the world’s largest retailer uses the KM process.

    Performed a comparative analysis of six federal and two private sector organizations
     with established KM processes to obtain a list of KM best practices.

See Appendix C for details regarding these practices.

We conducted this performance audit from May 2013 through March 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. We discussed our
observations and conclusions with management on January 21, 2014, and included
their comments where appropriate.

We assessed the reliability of computer-generated data from the Contract Authoring and
Management System by comparing key information against the Enterprise Data
Warehouse for knowledge and research studies provided by management. In addition,
we relied on our analysis and verified the accuracy of the data with Postal Service
management. We determined the data were sufficiently reliable for the purposes of this
report.

11
  Walmart has over 11,000 stores in 27 countries, e-commerce websites in 10 countries, and 2.2 million employees
worldwide. In addition, in 2012, Walmart’s net sales were $443.9 billion.


                                                       11
Postal Service Knowledge Management Process                                      DP-AR-14-002




Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              12
Postal Service Knowledge Management Process                                                    DP-AR-14-002




                    Appendix B: Organizations Using Knowledge Management


                                Number of
                                Employees               Organizations with KM Processes and
                        12
     Organization             (Approximate)                    Rationale for Selection
              FAA                   45,000             Federal sector organization that provides a safety
                                                       infrastructure that is accountable to the American
                                                       public; a member of the KMWG.

              FBI                   36,000             Federal sector organization that provides a
                                                       national law enforcement infrastructure and is
                                                       accountable to the American public; a member of
                                                       the KMWG.
                                    17,000             Federal sector organization that is funded like the
             GSA                                       Postal Service with a mix of agency-generated
                                                       revenue from property management and
                                                       acquisition, as well as some taxpayer funds; a
                                                       member of the KMWG.
            NASA                    18,000             Federal sector organization that is responsible for
                                                       the nation's civilian space program; a member of
                                                       the KMWG.

      The World Bank                10,000             In 1996, The World Bank launched its
                                                       "Knowledge Bank" strategy, which led the way to
                                                       other KM processes; recognized for its knowledge
                                                       sharing achievements.
                                    323,200            Federal sector organization that assists the
      USN - Joint Staff                                Chairman of the Joint Chiefs of Staff in
                                                       accomplishing his responsibilities for the unified
                                                       strategic direction of combatant forces. It is
                                                       recognized as a leader in KM implementation and
                                                       a member of the KMWG.
            USSS                     6,500             Federal sector organization; a federal law
                                                       enforcement agency; a member of the federal
                                                       KMWG.

                                  2.2 million          Private sector organization; with a similar profile
           Walmart                                     to the Postal Service because of its numbers of
                                                       locations, workforce size, reliance on delivery and
                                                       transportation, and service requirements. KM is
                                                       used to focus organizational objectives to improve
                                                       business performance, innovation, competitive
                                                       advantage, and business operations.




12
     Organizations are listed in alphabetical order.


                                                         13
Postal Service Knowledge Management Process                                     DP-AR-14-002




                 Appendix C: Knowledge Management Best Practices

The key elements of a quality KM environment are grouped into three categories —
people, process, and technology. They are used to categorize the best practices
developed from our comparative analysis of the eight best-in-class organizations as
follows:

I. People

1. Senior leadership involvement – senior leadership involvement is cited as an
   essential component of the KM process because senior-level visibility and ownership
   ensure the organization’s KM process is aligned with its business objectives. KM
   senior-level visibility and support are particularly valuable when it comes to
   communication and change management. For example, in one organization, the fact
   that the CKO is only two levels down from the chief executive officer shows the
   significance the organization places on that role and its importance in achieving
   strategic goals. An organization can use change management to enable a culture of
   knowledge sharing, innovation, and collaboration and a deep appreciation of the
   value of its employees.

2. Organizational culture – effective KM requires an organization to have a
   knowledge-sharing culture to be successful. Key characteristics of this culture
   include:

      Top leadership sees knowledge as a strategic asset and incentivizes and
       supports KM processes.

      The organization focuses on developing and exploring its knowledge assets.

      Tools and processes for managing knowledge are clearly defined.

      Knowledge creation, sharing, and use are natural and recognized parts of the
       organization's processes, not separate from normal work processes.

      Groups within the organization cooperate instead of compete with each other.

      Knowledge is made accessible to everyone who can contribute to or use it.

      Rewards and performance evaluations specifically recognize contributions to,
       and use of, the organization's knowledge base; communication channels and a
       common technology infrastructure enable and enhance KM activities.

   Instituting a knowledge-sharing culture is critical to the KM process but it is too large
   a task to be a single KM initiative. A better approach is to combine several initiatives
   and present a common vision and focus that integrates KM with overall



                                              14
Postal Service Knowledge Management Process                                     DP-AR-14-002



   organizational learning and performance improvement. That means that KM needs
   to be very closely allied with the business strategy. An organization should ask itself:

      Which of our key strategic business issues can be significantly impacted by
       giving people access to knowledge?

      How can we apply KM to deliver that impact?

II. Process

1. Support team – every form of asset management has dedicated support and the
   same is true for KM. Even after the KM system is designed and rolled out, an
   organization needs a designated contact (either a CKO or a small group) to maintain
   momentum. The contact’s main task is keeping the system maintained, running the
   monitoring and measurement activities, crafting the long-term KM strategy, and
   intervening as needed to sustain KM. Specifically, the contact monitors performance
   and analyzes results for continuous improvement. Successful KM depends on a
   committed group of knowledge workers, which, in turn, requires the support center to
   track performance, measure results, and report findings. Ideally, quantifiable results
   are broadcast weekly to executives, teams, and individuals. Participants at every
   level must be able to see evidence of the cumulative benefits so they actively
   participate and continuously improve the knowledge available to both agents and
   users of web-based, self-service options. Beyond this, visible progress ensures that
   the knowledge initiative will receive the necessary resources for long-term success.
   Industry research analysts have stressed and documented the value of KM for call
   centers, help desks, and other support environments. In addition, knowledge-based
   support is seen as the best way to ensure successful self-service for customers,
   employees, partners, and vendors via the web. Research suggests that, without a
   viable self-service strategy, organizations will be hard-pressed to meet the demand
   for high-quality, flexible service in an era dominated by competitive alternatives.

2. Knowledge maps – a visual representation of an organization's knowledge. There
   are two common approaches to knowledge mapping:

      Mapping knowledge resources and assets and showing what knowledge exists in
       the organization and where it can be found.

      Showing how knowledge flows throughout the organization, from where it resides
       to where it is needed.

   Clearly the second approach provides the most complete picture for a knowledge
   auditor; however, the first is also useful and, in some organizations, exists to help
   employees locate the knowledge they need.

   Knowledge mapping is social network analysis (SNA). Organizations that have been
   frustrated by traditional KM efforts are increasingly looking for ways to determine


                                              15
Postal Service Knowledge Management Process                                      DP-AR-14-002



       how knowledge flows through their organization and SNA can do this. SNA maps a
       group’s contacts (personal and professional) to identify how employees are
       connected to one another. In organizations, it provides a clear picture of the ways
       that employees and divisions work together and can help identify SMEs who
       possess the knowledge needed in certain situations. SNA can identify how
       knowledge flows through an organization, who holds influence, who gives the best
       advice, and how employees share information. SNA can also identify the skills an
       organization needs to retain, develop, and determine who among those eligible to
       retire within 5 years has the most important knowledge and experience to transfer to
       others.

3. Locally owned and sustained knowledge – keeps an organization's knowledge
   up-to-date, more contextual, and richer in connections (links to origins, owners, and
   operators) to enhance the ability of people to grasp and apply knowledge to their
   own situations. Knowledge that is close to the action is more likely to be reused.

4. Acquisition of SME knowledge – when there is an SME and a knowledge retention
   program that's part of a KM process, one of the first things needed is a plan outlining
   how an organization will preserve knowledge. An organization will have to identify
   the type of knowledge that is important, starting with soliciting supervisors and
   managers about who the critical employees are within the organization. There are
   several methods for capturing this information, including video debriefings,
   mentoring, and succession planning.

5. Conduct formal exits or informal interviews – interview departing employees to
   capture knowledge. This practice is more effective if structured with core questions
   and questions tailored to the employee's specialty. It also provides the organization
   an opportunity to receive information about the status of current programs and
   projects, as well as any outstanding issues or problems it may face in the future.

6. Review of lessons learned – managers and staff need to investigate what others
   have done to discover and capture critical knowledge within their organizations and
   build on this experience. For example, the following activities capture employee
   knowledge:

          Assign an employee to a temporary detail assignment within a unit to learn from
           an experienced SME or knowledgeable supervisor.

          CoP meetings, conferences, and symposia13 with proceedings and interactions
           between new and old employees.

          Formal and informal mentoring.

          Staff publications that often preserve the most critical knowledge.


13
     A conference or meetings held to discuss a particular subject.


                                                            16
Postal Service Knowledge Management Process                                   DP-AR-14-002



      Video interviews (ad hoc).

      Certification programs.

      Various new employee orientations, many including new employees shadowing
       experienced employees.

   The lessons learned process is a set of information management processes
   designed to preserve institutional knowledge and communicate experiences that can
   potentially reduce risk, improve efficiency, promote validated practices, or improve
   performance in the areas identified above. Lessons are collected from individuals,
   projects, and programs or supporting organizations, primarily at the unit level. The
   content of lessons learned systems in the organization can be discovered and
   searched across the organization to the broadest extent possible. Lesson
   recommendations shall be assessed for potential changes to policies, procedures,
   guidelines, technical standards, training, education curricula, and so forth, and
   infused back into the system via existing corrective action systems.

7. A pause and learn (PAL) session – a time for reflecting among fellow team
   members. A PAL session tends to focus on recent events, is simple to implement,
   and requires a small time commitment. Usually a facilitator from outside the team is
   brought in to guide the discussion over a period of 1 or 2 hours. The primary benefit
   of the session is the participants' own learning and reflection. Reports are not
   required and the environment is one of non-attribution.

8. Case-based approach – the best practice for transferring information from in-depth
   discussions with senior leaders about case studies is a case-based approach where
   the subject matter information comes from the experiences of people familiar with
   the organization's legacy of successful projects. Most case studies are facilitated in
   person by project team members who have worked on the projects being discussed
   with the workshop participants.

9. Education and Training – an organization can enhance future operations by
   applying modern KM techniques. This will result in improved employee training,
   innovation, responsiveness, and a more balanced organizational culture. A company
   could implement the following education and training methods:

      Classroom and simulator training.

      Video- or Internet-based coursework.

      Coaching, shadowing, and mentoring.

      On-the-job training and targeted work assignments – have junior-level employees
       sit in on important meetings.

      Apprenticeship programs.


                                              17
       Postal Service Knowledge Management Process                                   DP-AR-14-002




             Action reviews and retrospectives to “pause” for knowledge acquisition;
              summarize, record, and share lessons learned.

             Storytelling (narrative) as a way to discover, capture, and share knowledge and
              skills.

             Time and place for employees to educate and learn from each other.

             Benchmarking across agencies to identify best practices and knowledge, record
              it, and share it agency-wide.

             Knowledge and skills improvement curriculum plan for critical disciplines to
              ensure continuous learning.

  10. Feedback – design effective feedback loops everywhere. Giving and receiving
      positive and negative feedback is an important skill in knowledge sharing. Feedback
      mechanisms, such as those listed below, must be built in so that management can
      constantly assess the value of existing best practices and use feedback to create
      further improvements:

             Allow everyone the chance to provide feedback, either publicly or anonymously.

             Ensure action on feedback so people know what they contribute is worthwhile
              and advertise this action widely.

             Reward and recognize feedback.

III.      Technology

       1. Appropriate technology – when framing KM, technology is 20 percent and the
          remaining percentage is people and processes. Technology is not necessary to
          implement KM but does enable it. When an improper technology change occurs, it
          can discourage knowledge sharing.




                                                     18
Postal Service Knowledge Management Process                                                               DP-AR-14-002



     When choosing technology, consider the following inexpensive but effective
     applications:

        Evaluating and deploying wikis14 – to manage institutional knowledge,
         organizations deploy wikis, which enable users to create and edit the content of a
         website and comment on the content. Wikis act as a centralized repository for
         different types of corporate data, such as spreadsheets, Word documents,
         PowerPoint slides, and Portable Document Formats. Wikis can also embed
         standard communications media, such as email documents or instant messaging
         capabilities. Organizations deploy wikis for the following knowledge and content
         management capabilities:

         o Provide a forum for grouping and disseminating employee knowledge by
           recording conversations, arguments, and responses.

         o Serve as a central repository for recording internal communications.

         o Provide ability to logically structure and manage organizational content.

         o Serve as an internal enterprise system to log corporate activities.

         o Serve as an internal document access management system.

         Current developers of wikis for KM systems are using taxonomies 15 to organize
         information, enabling the right data to be retrieved through a search capability. In
         addition, organizations tag documents or information sources and deploy
         enterprise search products, thereby reducing the amount of time employees
         spend searching for information.

        Evaluating and deploying blogs16 – a blog acts as an online diary or journal entry,
         which primarily supports text, photo, video, and audio formats. Organizations
         deploy blogs to instantly publish and share expertise within an organization and
         engage the author in a dialog with viewers. A successful enterprise blog provides
         a single, unified platform that specific business participants can use to write posts
         for discrete audiences.

        Tagging17 – due to an increasing volume of information in the enterprise,
         companies face challenges in organizing and cataloging information assets.
         Tagging is a way to manage large amounts of unstructured information. Tagging
         allows content to be marked multiple times, providing multiple paths to
         information. Over time content can be defined by the tags assigned to it and tag


14
   Website that allows the collaborative editing of its content and structure by its users.
15
   The science, laws, or principles of systematic classification.
16
   A personal website or web page, on which an individual records opinions, links to other sites, and so forth on a
regular basis.
17
   The attachment of keyword descriptions (called tags) to identify images or text within a site as a category or topic.


                                                           19
Postal Service Knowledge Management Process                                                           DP-AR-14-002



         clouds18 can be generated to provide a visual of the subject matter that people
         can use to quickly and easily establish context and relevance.

        Enterprise search – the practice of identifying and enabling specific content
         across the enterprise to be indexed, searched, and displayed to authorized
         users. This helps capitalize on internal and external knowledge, increases the
         circulation and sharing of information across teams and organizational functions,
         and improves knowledge workers’ productivity. Enterprise searches enable
         timely gathering of relevant information from different sources, deep analysis of
         large volumes of information, constant monitoring for topics of interest, alerting
         and notification based on targeted events and user defined criteria, and extreme
         personalization.

2. Establish CoPs – a group of people who share a concern, a set of problems, a
   common role or passion about a topic. It is a voluntary association of people who are
   drawn together to share ideas, concerns, and experiences in matters that affect
   them on a regular basis. It enables practitioners in a subject area to keep each other
   current, enhance their understanding of an issue, and broaden their professional
   network. The purpose of this virtual repository is to foster knowledge sharing within
   and among organizations, including sharing knowledge gained, best practices, and
   lessons learned; soliciting input for challenges or just-in-time help; and initiating
   knowledge-related, real-time discussions among members.

     CoPs provide an organization with:

        Informal ways for individuals to learn, use positive experiences that improve a
         design or process, share and solicit input from others, and avoid repeating past
         mistakes.

        A forum for practitioners of a discipline to interact, share knowledge and
         experiences pertinent to their jobs, and help solve business problems.

        A mechanism for individuals to keep others current in the development of shared
         disciplines, which aids in better top-down communication by providing multiple
         and more direct methods of disseminating information and ideas.

     The organization would need to provide technology to take CoPs online so that
     communication is facilitated among teams, directorates, groups, and divisions, as
     well as issue areas.

3. Case studies catalog – lists an organization’s cases from a range of sources. Case
   studies are used in workshops, conferences, training programs, and interactive
   media. A collection of cases should cover those of various sizes and a wide range of
   projects and topics.

18
  A stylized way of visually representing occurrences of words used to describe tags, such as highlighting most
popular topics in larger, bolder font.


                                                         20
Postal Service Knowledge Management Process                                     DP-AR-14-002




4. Knowledge or case study repository – case studies are catalogued as document
   repositories that capture project stories and associated lessons learned or best
   practices. An organization’s repository is designed and managed to store, distribute,
   and preserve digital publications and other resources. A repository's content may
   consist of collections produced or controlled by the organization’s community. A
   collection is a group of digital objects and metadata related to the work of the
   organization. The repository may include items in a variety of formats, including text,
   images, audio, and video. The organization can control access to the repository.

5. Corporate library – in a learning organization, a library should provide a strong
   center of KM. Unlike those business organizations whose KM goal is competitive
   advantage, most public, academic, and research libraries — with the exception of
   company libraries (which may be called corporate libraries, specialty libraries, or
   knowledge centers) — have a different orientation and value. Instead of maintaining
   libraries for competition and limiting them to internal use only, with little sharing of
   knowledge with outsiders, the most important mission of public, academic, and
   research libraries is expanding their users' access to knowledge. Charged with this
   mission, libraries should have KM as a priority.

6. Public SOP – a company could post its SOPs on a public website so its customers,
   grantees, and contractors would be on the same page as its staff. Based on SME
   input, SOPs provide step-by-step instructions by role for dozens of procedures.
   SOPs also include contact information and links to more resources, including policy
   documents and required forms.




                                              21
Postal Service Knowledge Management Process                  DP-AR-14-002



                         Appendix D: Management's Comments




                                              22
Postal Service Knowledge Management Process        DP-AR-14-002




                                              23
Postal Service Knowledge Management Process        DP-AR-14-002




                                              24
Postal Service Knowledge Management Process        DP-AR-14-002




                                              25
